No. 20-177

In the Supreme Court of the United States
ALLY FINANCIAL INC.,
Petitioner,
v.
ALBERTA HASKINS, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
I, Nicole A. Saharsky, counsel for Amici Curiae and a member of the Bar of this
Court, hereby certify that, according to the word-count tool in Microsoft Word, the
Brief of the Chamber of Commerce of the United States of America, the American
Bankers Association, the American Financial Services Association, and the National
Automobile Dealers Association as Amici Curiae in Support of Petitioner consists of
5,915 words, including footnotes and excluding the sections enumerated by Rule
33.1(d). The Brief therefore complies with Rule 33.1(g).

/s/ Nicole A. Saharsky
Nicole A. Saharsky
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
nsaharsky@mayerbrown.com

